                      art




    YEAR 2000 INITIATIVES AT THE DEFENSE FINANCE AND
        ACCOUNTING SERVICE CLEVELAND CENTER



Report No. 98-111                         April 16, 1998




              Offke of the Inspector General
                  Department of Defense
                                                           .
   AdditionaI Information and Copies

   To obtain additional copies of this audit report, contact the Secondary Reports
   Dlstrlbutton Unit of the Analysis, Planning, and Technical Support Directorate at
   (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
   General, DOD Home Page at: www.dodig.osd.mil.

   Suggestions for Audits

   To suggest ideas for or to request future audits, contact the Planning and
   Coordination Branch of the Analysis, Planning, and Technical Support
   Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
   and requests can also be mailed to:

                     OAIG-AUD (ATI’N: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

                        Automated Disbursing System
z%(C3I)                 Assistant Secretary of Defense (Command, Control,
                           Communications and Intelligence)
BEBS                    Book Entry Bond System
CIO                     Chief Information Officer
                        Capability Maturity Model
:!Z                     Defense Finance and Accounting Service
DIST                    Defense Integrated Support Tools
                        Defense Retiree and Am&ant Pay System
:w”ks                   Defense Working Capital Accounting System
GAO                     General Accounting Office
IFAS                    Industrial Fund Accounting System
                        Inspector General
:OA                     Memorandum of Agreement
                        Office of Management and Budget
%?                      Point of Contact
STARS                   Standard Accounting and Reporting System
UMIDS                   Uniform Microcomputer Disbursing System
Y2K                     Year 2000
                              INSPECTOR    GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VlRGlNlA 22202




                                                                           April 16, 1998




MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE CLEVELAND CENTER


SUBJECT: Audit Report on Year 2000 Initiatives at the Defense Finance and
         Accounting Service Cleveland Center (Report No. 98-l 11)


        We are providing this audit report for information and use. This is the first in a
series of reports on Year 2000 initiatives. The primary purpose is to identify areas of
concern related to Year 2000 efforts at the Defense Finance and Accounting Service.

        We considered management comments on a draft of this report when preparing
the fti report. The Defense Finance and Accounting Service comments conformed to
the requirements of DOD Directive 7650.3; therefore additional comments are not
required.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Kimberley Caprio, Audit Program Director, at
(703) 604-9139 (DSN 664-9139), e-mail kcaprio@dodig.osd.mil, or
Mr. Geoffrey Weber, Acting Audit Project Manager, at (703) 604-9151
(DSN 664-9151), e-mail gweber@dodig.osd.mil. See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                          Robert 1. Lieberman
                                       Assistant Inspector General
                                               for Auditing
                          Office of the Inspector General, DOD

Report No. 98-111                                                        April 16,1998
 (Project No. 7FG-0043)

                           Year 2000 Initiatives at the
                     Defense Finance and Accounting Service
                                Cleveland Center

                                 Executive Summary

Introduction. This is one in a series of reports being issued by the Inspector General,
DOD, in an informal partnership with the Chief Information Officer, DOD, to monitor
DOD efforts to address the Year 2000 computing challenge.

Information technology systems have typically used two digits to represent the year,
such as “97” representing 1997, to conserve electronic data storage and reduce
operating costs. With the two-digit format, the Year 2000 would be represented as
“00,” thus making it indistinguishable from 1900. As a result of this ambiguity,
computers and associated systems and application programs that use dates to calculate,
compare, and sort information could generate incorrect results when working with
years after 1999. To track and assess the progress in addressing Year 2000 problems,
DOD issued the Y2K Management Plan. The Y2K Management Plan, which provides
the overall strategy for resolving issues, has five phases: awareness, assessment,
renovation, validation, and implementation.

Audit Objectives. The overall audit objective was to determine the effectiveness of
Defense Finance and Accounting Service (DFAS) initiatives to address the Year 2000
computer problem, beginning with the assessment phase. Specifically, we determined
whether the DFAS Cleveland Center performed adequate system assessments, and we
evaluated the existence and adequacy of interface agreements. Subsequent reports will
address the other DFAS centers. We did not review the management control program
as it relates to the overall audit objective. DFAS and DOD identified Year 2ooO as an
uncorrected material weakness in their Annual Statements of Assurance for FYs 1996
and 1997.

Audit Results. To assist DFAS in taking prompt action, we briefed management on
issues regarding DFAS reporting requirements and interface agreements. DFAS has
initiated actions to address these issues, but additional efforts are needed. DFAS
Cleveland Center system managers have not performed adequate assessments before
moving systems into the renovation phase. One DFAS Cleveland Center system has
been reported as Year 2000 compliant, although its compliance has not been validated.
The DFAS Cleveland Center has not established all interface agreements and has not
obtained interface agreements with sufficiently detailed information to ensure that
interfaces will not cause failures due to the Year 2000 computing problem.

Summary of Recommendations. We recommend that the DFAS Cleveland Center
review the results of the assessment phase at the system level to ensure that proper
assessments have been performed; validate systems identified as Year 2000 compliant;
establish adequate interface agreements; and establish verification processes to ensure
that interface agreements meet requirements and that the reporting of the systems’
prtigress m becoming Year 2000 compliant reflects actual progress.
Management Comments. The DFAS concurred with the findings and
recommendations in the draft report. The DFAS Cleveland Center stated system
managers will be directed to complete the assessment phase exit criteria for systems
reporting in the renovation phase. System managers will also be required to complete
the compliance certification checklist before reporting systems as compliant. The
Director, DFAS Cleveland Center will conduct monthly Y2K Control Board meetings
to monitor system progress and to provide a forum for prompt resolution of potential
problems. In addition, the DFAS Cleveland Center established a milestone of
March 31, 1998, to correct deficiencies identified with Year 2000 interface agreements.
System managers will also review verification procedures to ensure that existing
interface agreements include the necessary elements. See Part I for a discussion of
management comments and Part III for the full text of management comments.




                                            ii
Table of Contents
Executive Summary                                                    i

Part I - Audit Results
      Audit Background
      Audit Objective                                            i
      Other Matters of Interest                                   4
      Finding A. DFAS Reporting Requirements                      6
      Finding B. Interface Agreements                            14

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology
        Management Control Program                               2
                                                                 22
      Appendix B. Summary of Prior Coverage
      Appendix C. IG, DOD, Memorandum to DFAS Cleveland Center
                  on Y2K Initiatives                             23
      Appendix D. DFAS Cleveland Center Comments on
                  IG, DoD, Memorandum                            28
      Appendix E. Report Distribution                            31

Part III - Management Comments

      Defense Finance and Accounting Service Comments            34
Part I - Audit Results
Audit Background
    The Defense Finance and Accounting Service (DFAS) has management
    responsibility for DOD finance and accounting functions and the information
    technology used to perform these functions. Each year, DFAS pays
    approximately 4 million military and civilian personnel, 2 million retirees and
    annuita.nts, and 23 million invoices to contractors and vendors. DFAS
    Year 2000 (Y2K) quarterly reports track 196 systems. Of these, the DFAS
    Cleveland Center reports on 76 systems. Because DFAS relies heavily on
    computer systems to carry out its operations, Y2K issues can affect every aspect
    of the DFAS finance and accounting mission.

    The cause of the Y2K problem is that automated systems typically use two digits
    to represent the year, such as “97” to represent 1997, to conserve electronic
    data storage and reduce operating costs. With the two-digit format, however,
    the Y2K is indistinguishable from 1900. As a result of this ambiguity,
    computers and associated systems and application programs that use dates to
    calculate, compare, and sort information could generate incorrect results when
    working with years after 1999. The calculation of Y2K dates is further
    complicated because Y2K is a leap year. Computer systems and applications
    must recognize February 29,2000, as a valid date. Unless the problem is
    corrected, those automated systems will fail. Therefore, senior management
    must monitor progress closely. To maintain awareness of potential areas of
    concern, both the Office of Management and Budget (OMB) and DOD require
    that the status of Y2K compliance be reported frequently.

    Because of the potential operational impact on Government computers, the
    General Accounting Office (GAO) identified Y2K as a high-risk program. DOD
    and DFAS also identified Y2K as an uncorrected material weakness in their
    Annual Statements of Assurance for FYs 1996 and 1997.

    OMB Reporting Requirements.           On February 6, 1997, OMB issued a report,
    “Getting Federal Computers Ready for 2000. n The OMB report included an
    initial cost estimate, planned strategy, and a timetable for implementing the
    planned strategy. In addition, OMB will monitor agency progress by requiring
    quarterly reports. On May 7, 1997, OMB issued the “Memorandum on
    Computer Difficulties Due to the Y2K -- Progress Reports.” The memorandum
    requires that Y2K progress reports be issued to Congress and the public. The
    heads of selected Government agencies must report on the status of Y2K efforts
    each quarter, with the initial report due on May 15, 1997. Each agency is
    required to report on mission-critical systems, including the number of systems
    that are Y2K compliant, being replaced and repaired, and scheduled to be
    retired.

    DOD Reporting Requirements.       As the DOD Chief Information Officer (CIO),
    the Assistant Secretary of Defense (Command, Control, Communications and
    Intelligence) (ASD [C3IJ) issued a memorandum on March 12, 1997, “Y2K
    Refined Reporting Requirements for DOD. n The memorandum establishes
    quarterly reporting requirements for Y2K assessment and progress throughout
    DOD. Reports are intended to show the status of DOD Y2K efforts and are used
    by the CIO to oversee DOD Y2K efforts and fulftil OMB reporting requirements


                                        2
at the DOD level. The memorandum, which also established criteria for
reporting mission-critical systems in the Defense Integration Support Tools
(DIST) database, is published as an appendix to the DOD Y2K Management
Plan.

DOD Y2K Management Plan (Version 1.0, April 1997). The DOD Y2K
Management Plan provides the overall DOD strategy and guidance for taking
inventory, prioritizing, fixing and retiring systems, and monitoring progress in
resolving Y2K issues. Each DOD Component is responsible for awareness,
assessment, renovation, validation, and implementation action.

        The F’ive-Phase Management Process. Each of the five phases listed
below represents a major Y2K program activity or segment. Target completion
dates range from December 1996 through March 1, 1999.

        l Phase I - Awareness.  Define the Y2K problem and gain
executive-level support and sponsorship. Establish a Y2K program team and
develop an overall strategy. Ensure that everyone in the organization is fully
aware of the Y2K problem. Target completion date: December 1996.

        l Phase II - Assessment.   Assess the impact of Y2K on the enterprise.
Identify core business areas and processes, take inventory, and analyze systems
that support the core business areas, prioritize their conversion or replacement.
Develop contingency plans to handle data exchange issues, lack of data, and bad
data. Identify and secure the necessary resources. Target completion date: June
1997.

        l Phase III - Renovation. Convert, replace, or eliminate selected
platforms, applications, databases, and utilities. Modify interfaces. Target
completion date: September 1998.

        l Phase IV - Validation. Test, verify, and validate converted or
replaced platforms, applications, databases, and utilities. In an operational
environment, test the performance, functionality, and integration of converted
or replaced platforms, applications, databases, utilities, and interfaces. Target
completion date: January 1999.

        l Phase V - Implementation.      Implement converted or replaced
platforms, applications, databases, utilities, and interfaces. If necessary,
implement contingency plans for data exchange. Target completion date:
March 1, 1999.

        DIST Database. The DIST database, maintained by the Defense
Information Systems Agency, contains data on certain automated systems used
by DOD Components, including data on hardware platforms, operating systems,
application languages, communications, and interfaces. The DIST database
provided DOD-wide information on Y2K that managers could use to track and
monitor Y2K compliance for mission-critical and other designated systems. The
ASD (C3l) is expected to update the DOD Y2K Management Plan and direct a
different data repository arrangement.
     DFAS Y2K Executive Plan. To ensure that all active DFAS systems are Y2K
     compliant, DFAS developed a Y2K Executive Plan that outlines management
     responsibilities and reporting requirements. The DODY2K Management Plan
     covers the following four general areas to ensure that DFAS meets the
     challenge. The plan covers the:
             l establishment of the DFAS Y2K points of contact (POCs) at various
     levels within the organization, including a POC who participates in the DOD
     Y2K Working Group and distributes Y2K information to DFAS.
            l establishment of an inventory of DFAS systems that categorizes
     systems to be changed, replaced, or terminated and those that are Y2K
     compliant.
            l establishment of Y2K responsibilities for the program and system
     managers; Directors of the DFAS Centers; the Deputy Director, DFAS; and the
     Deputy Director for Information Management.
            l development of a DFAS quarterly consolidated report with
     information on systems at the DFAS Centers and Deputates.


Audit Objective
     The overall audit objective was to determine the effectiveness of DFAS
     initiatives to address the Y2K computer problem, beginning with the assessment
     phase. Specifically, we determined whether the DFAS Cleveland Center had
     performed adequate system assessments, and we evaluated the existence and
     adequacy of interface agreements. Subsequent reports will address the other
     DFAS Centers. We did not review the management control program as it
     relates to the overall audit objective because DFAS and DOD identified Y2K as
     an uncorrected material weakness in their Annual Statements of Assurance for
     FYs 1996 and 1997. See Appendix A for a discussion of the audit scope and
     methodology.


Other Matters of Interest
     Determining whether systems are Y2K compliant is a relatively new
     requirement for DFAS system managers. The objectives of this audit focused
     on Y2K compliance issues and did not include evaluating the software
     maintenance processes of the DFAS Cleveland Center and its Financial Systems
     Activity. However, during our audit work, we encountered areas of concern




                                       4
relating to the processes used by system managers to ensure that their systems
are Y2K compliant. Based on interviews with system managers and
documentation supporting Y2K system changes, it was evident that practices and
procedures were not consistently applied to the system change processes for
Y2K requirements.
The capability maturity model (CMM) was established by the Software
Engineering Institute at Carnegie Mellon University, Pittsburgh, Pennsylvania,
to measure the level of software maintenance organizations. According to the
CMM, organizations that are ranked at higher levels have a lower risk of cost
overruns and schedule delays when performing software maintenance projects.
We did not evaluate the DFAS organizations that performed Y2K software
maintenance against the standards in the CMM. However, we encountered
characteristics typically attributed to lower-ranked software development
organizations. Specifxally; we noted a lack of awareness and application of
existing policies and procedures for software maintenance. We also reviewed
Y2K maintenance project plans which did not include thorough definitions of
the work required and realistic milestones based on estimated work
requirements.
           Finding A. DFAS Reporting
           Requirements
           The DFAS Cleveland Center’s quarterly reports on Y2K were unreliable
           and did not accurately report the progress in solving Y2K problems at
           the DFAS Cleveland Center. Specifically, the DFAS Cleveland Center
           did not:
                   a perform adequate assessments of systems reported in the
                     renovation phase, and
                   0 meet all requirements for making systems Y2K compliant.

           The quarterly reports were unreliable because system managers at the
           DFAS Cleveland Center did not implement the requirements of the DOD
           Y2K Management Plan, which specifies the exit criteria and minimum
           requirements for a system-level Y2K project plan. In addition, the
           DFAS Cleveland Center did not have a mechanism for verifying that a
           system had met the requirements for progressing from one phase to the
           next. As a result, DODand DFAS management were relying on
           inaccurate information, which increased the risk of system failures due
           to Y2K noncompliance.


Y2K Reporting Requirements
    DFAS Quaherly Reporting Req uiremmts. DFAS reports quarterly on the
    Y2K status of all its systems. The quarterly reporting process is used by DOD
    and DFAS management to monitor Y2K progress and to decide where to
    allocate resources. Each DFAS Center prepares a quarterly report summarizing
    the status of its assigned systems. The quarterly reports are updated, then
    reviewed and approved by the Director of a DFAS Center or the Deputy
    Director, DFAS, and are submitted to the DFAS Y2K Project Manager, who
    consolidates the data into a single report. The consolidated report, a summary-
    level report that tracks progress at the DFAS level, is reviewed by the Deputy
    Director for Information Management. Subsequently, the Deputy Director for
    Information Management issues a less comprehensive Y2K quarterly report to
    ASD (C3I) for inclusion in the DODconsolidated Y2K quarterly report to
    OMB.
    To identify and monitor the status of all DODsystems in becoming Y2K
    compliant, the ASD (C31) and DFAS have established reporting guidelines.
    The guidance standardizes the reporting process and ensures that system
    managers use a consistent methodology for reporting the Y2K status of systems.
    DOD Guidance. The DOD Y2K Management Plan, Version 1.0, April 1997,
    details the five-phase management process, key responsibilities of DOD
    Components, quarterly reporting requirements, and the timeline for completion


                                       6
                                      Finding A. DFAS Reporting Requirements


    of each Y2K phase. The DODY2K Management Plan also gives criteria for
    DODComponents to determine the appropriate Y2K phase for each system in
    their quarterly Y2K reports to the ASD (C3I).
    DFAS Guidance. DFAS Regulation 8000. l-R, “Information Management
    Policy and Instructional Guidance,* version 5, chapter 11, Y2K Initiative,
    June 19, 1997, establishes DFAS Y2K guidance, corporate strategy, and a
    DFAS Executive Plan for Year 2000. The Regulation also defines the system
    release test procedures and processes that DFAS system managers should follow
    to ensure Y2K compliance, including system certification guidance and a DFAS
    compliance certification checklist.


System Phase Quarterly Reporting
    We reviewed selected systems reported by the DFAS Cleveland Center. These
    systems were listed in the DFAS October 1997 quarterly report submitted to the
    Deputy Director for Information Management. Systems at the DFAS Cleveland
    Center were reported in phases that did not accurately reflect the level of work
    performed. Specifically, three of the six systems we reviewed had not
    completed a sufficiently thorough assessment to be reported in the renovation
    phase. In addition, one of the two systems that we reviewed was reported as
    being Y2K compliant, although it had not met the reporting requirements.
    According to the DODY2K Management Plan, each DOD Component should
    complete the exit criteria for each phase, and systems that cannot meet DoD-
    established completion dates should be tracked to ensure that exit criteria are
    completed by the last day of each phase. The system managers should use the
    exit criteria in the DoD Y2K Management Plan to determine whether a system
    has completed an adequate assessment and can proceed to the next Y2K phase.
    System managers should perform these basic steps before applying the exit
    criteria to DFAS as a whole.


Systems Reported in the Renovation Phase
    In the DFAS October 1997 quarterly report, the DFAS Cleveland Center
    reported 20 of 76 systems in the “to be changed” category. All 20 systems
    were also reported in the renovation phase. (The remaining 56 systems were
    categorized as ‘to be replaced, n “bemg developed as Y2K compliant,” or
    “already Y2K compliant.“) To report that a system is in the renovation phase,
    the system should meet the exit criteria of the assessment phase as outlined in
    the DODY2K Management Plan. Developing a system-level Y2K project plan
    is the primary deliverable for exiting the assessment phase.
    Requirements for Completing the Asegment          Phase. During the assessment
    phase, the system manager determines the level of Y2K work to be performed,
    develops an initial cost estimate, and prepares a detailed Y2K project plan. For
    a DODsystem to advance from the assessment phase, the DODY2K
    Management Plan requires that the following exit criteria be completed:


                                        7
Finding A. DFAS Reporting Requirements


             l   an assessment phase plan,

             l   a documented renovation strategy,
             l   a Y2K resource strategy and plan,
             l   a documented validation strategy,
             l   inclusion of the system in the DIST database, and
             l   a documented plan for risk management and contingencies.
      To exit the assessment phase, each DOD Component should have a documented
      Y2K project plan for each system. A Y2K project plan incorporates the
      elements of the assessment phase exit criteria listed above, and, in accordance
      with the DODY2K Management Plan, should include, at a minimum:
             l   the start and release date for each phase,
             l   major steps in conversion (renovation) and testing (validation) of the
                 code,
             l   major steps in establishing the necessary infrastructure, and
             l   resources required to accomplish these tasks.
      A comprehensive Y2K project plan can minimize costs and shifting of
      resources, establishes accurate schedules and milestones, identifies deficiencies,
      and lessens risks as a system progresses through the Y2K phases. Without an
      adequate assessment and a detailed Y2K project plan, system managers may
      underestimate the work and resources required to make a system Y2K
      compliant. Performing an adequate assessment and developing a detailed
      project plan allows system managers to develop realistic and accurate milestones
      and increases the probability of meeting the milestones.
      Completion of the Assessment Phase. We selected 6 of the 20 systems
      reported in the renovation phase to determine whether the systems met the
      requirements for completing the assessment phase. Our analysis was based on
      the exit criteria and minimum elements of a project plan at the completion of the
      assessment phase. We did not review the assessment phase exit criteria in the
      DODY2K Management Plan for establishing risk management and contingency
      plans. For three of the six systems reviewed, system managers at the DFAS
      Cleveland Center had not performed an adequate assessment and had not met all
      of the exit criteria for the assessment phase. The following are two examples of
      systems inappropriately reported in the renovation phase.
             Automated Disbursing System (ADS). ADS is an interim migratory
      system identified by DFAS as one of its top 20 mission-critical systems. ADS
      produces vouchers for disbursements and collections, issues payments, processes
      returned payments, prepares Forms W-2 (Wage and Tax Statements), and
      reports accounting information. The October 1997 quarterly report showed
      ADS in the renovation phase. At that time, system managers had identified the


                                             8
                                      Finding A. DFAS Reporting Requirements


system in the DIST database, had established start and release dates for each
phase, and had developed a Y2K resource strategy and plan. However, system
managers had not:
                l   documented the renovation strategy,
                l   documented the validation strategy, and
                l   dGn.$cz.he        major steps in establishing the necessary
                                  .

        Book Entry Bond System (BEBS). BEBS provides electronic
safekeeping of bonds purchased by an active duty member until the member
requests that the bonds be mailed to an address. This system was reported in
the renovation phase in the October 1997 quarterly report. At that time, system
managers had identified the system in DIST and had identified start and release
dates for each phase. However, system managers had not:
                l   identified the resources required,
                l   documented the renovation strategy,
                l   documented the validation strategy, and
                l   documented the major steps in establishing the necessary
                    infrastructure.
Inaccurate Reporting of Systems in the Renovation Phase. Of the six
systems we reviewed at the DFAS Cleveland Center, three had not met all exit
criteria for the assessment phase to permit them to be reported in the renovation
phase. This occurred because system managers did not follow the reporting
guidance in the DODY2K Management Plan and had not adequately assessed
the work required to make the system Y2K compliant.
Impact of Incomplete Exit Criteria and Project Plans Before Completing
the Assessment Phase. Inaccurate reporting of DFAS systems could adversely
affect the conversion of systems to meet the Y2K deadline. DoD has
established guidelines and exit criteria for the fwe phases to ensure consistency
in the reporting process and provide baselines against which to assess progress
in meeting Y2K compliance. Regardless of the phase in which a DFAS system
is reported, the steps outlined in the exit criteria must be performed in a timely
manner. The exit criteria give system managers a method for achieving Y2K
compliance. This is particularly important for the 88 systems that DFAS, in
total, has identified as mission-critical. Delay or failure to complete the steps in
the exit criteria for each phase could result in systems that are not Y2K
compliant and potential system failures when processing Y2K data. In addition,
organizations outside DFAS, including the ASD (C3I) and OMB, rely on the
quarterly reports to be consistent and accurate. When DFAS systems are
reported as being in the renovation phase without completing the exit criteria for
the assessment phase, this gives OMB and DODan inaccurate view of work




                                       9
Finding A. DFAS Reporting Requirementi


      performed. DFAS system managers should meet the assessment phase exit
      criteria in the DOD Y2K management plan for systems reported in the
      renovation phase.


Systems Reported as Compliant
      In the October 1997 quarterly report, 8 of the 76 systems reported under the
      DFAS Cleveland Center were Y2K compliant. Several processes can be
      followed to make a system Y2K compliant. A system can be developed as Y2K
      compliant and confirmed by certification; or an existing system can be made
      compliant through the five-phase process and confiied in the validation phase.
      However, before reporting a system as compliant, the system must go through
      the certification process. We reviewed two of the eight systems that the DFAS
      Cleveland Center reported as Y2K compliant. The two systems were the
      Defense Working Capital Accounting System (DWAS) and the Uniform
      Microcomputer Disbursing System (UMIDS).
      Requirements for Completing the Validation Phase. In the validation phase,
      assorted testing and compliance processes are used to provide assurance that
      systems are Y2K compliant. For a system to exit the validation phase and be
      certified as Y2K compliant, the following criteria, as identified in the DODY2K
      Management Plan, should be completed and documented:
             l   unit, integration, and system testing and system certified and
             l   acceptance testing and system certification.
              Certification Process. DFAS Regulation 8000.1-R gives system
      managers guidance on Y2K system certification, including a compliance
      certification checklist and test procedures for determining Y2K system
      compliance. The Regulation requires unit testing, integration testing, acceptance
      testing, and independent third party testing. DFAS system managers, in
      coordination with the technical manager, are to complete the certification
      checklist and return it to the Y2K POC. The POC is to review the completed
      checklist and verify any incomplete, inconsistent, or confusing information with
      the system manager. Subsequently, the DFAS Center Director or the Deputy
      Director, DFAS, is to review and sign the completed checklist. The Director,
      DFAS Cleveland Center, meets with system managers to jointly review the
      certification checklist.
              Meeting Criteria for Compliance. We reviewed two of the eight
      systems that the DFAS Cleveland Center reported as Y2K compliant. We
      determined that one of those systems, DWAS, had not met the exit criteria and
      should not have been reported as Y2K compliant. Our analysis was based on
      the exit criteria for the validation phase. SpecificaIIy, DWAS did not meet the
      exit criteria but was reported as compliant in the DFAS October 1997 quarterly
      report. DWAS is a migratory system identified by DFAS as 1 of the top
      20 mission-critical systems. It is designed to account for transactions from two
      component business areas. At the time of our review, DWAS system managers
      reported that neither of the DWAS components had performed all of the testing


                                           10
                                   Find@ A. DFAS Reporting Requirements


required by the DODY2K Management Plan to report a system as compliant.
Therefore, this system should not have been reported as Y2K compliant in the
October 1997 quarterly report.
Inaccm-ate Reporting of DWAS as Compliant. DWAS was erroneously
reported as compliant for the following reasons.
       l   System managers did not follow all guidance in the DOD Y2K
           Management Plan for completing the exit criteria for the validation
           phase before reporting the system as Y2K compliant.
       l   The DFAS Cleveland Center lacked a mechanism for verifying that
           all requirements were performed and documented before reporting
           systems as Y2K compliant.
       l   System managers perceived a need to demonstrate progress in
           reporting systems as Y2K compliant.
        Guidance in the DOD Y2K Management Plan. As stated above,
DWAS system managers did not follow the DODY2K Management Plan exit
criteria requirements before reporting DWAS as Y2K compliant. DFAS
Cleveland Center system managers need to ensure that the DODY2K
Management Plan exit criteria are completed before reporting systems as
compliant.
       Mechankm for Verification. The DFAS Cleveland Center lacked a
method for verifying that system managers completely and accurately report the
work performed to achieve system Y2K compliance. DFAS was relying on
system managers to report complete and accurate information for consolidation
into quarterly reports used by both internal users and outside organizations.
However, it needs to establish a mechanism to ensure that systems are
progressing as needed to meet Y2K deadlines and that information reported to
DODand DFAS management is accurate, reliable, and reflects the status of each
DFAS system.
        Perceived Need to Report Progress. Based on our interviews, DFAS
Cleveland Center personnel perceived the need to become Y2K compliant as
soon as possible and to report significant progress. Managers do not want to
fall behind and be reported to DFAS, DOD, and other organizations as not
meeting Y2K goals. Thus, rather than reporting conservatively, managers may
be optimistic in their estimations of progress on Y2K compliance.
Impact of Inaccurate Reporting. Inaccurate reporting of DFAS systems,
either in the renovation phase or as Y2K compliant, could have adversely
affected both DODand DFAS. DODand DFAS managers relied on the
information and made assumptions in planning future Y2K work; as a result,
systems might fail. Y2K compliance testing in a later phase might fail to
achieve Y2K compliancy within acceptable time frames. Specifically; if DFAS
managers had believed that systems reported in the renovation phase had
completed all exit criteria for the assessment phase, they may have assumed, for
example, that major steps required to convert or test codes had been determined



                                    11
F3nding A. DFAS Reporting Requirements


      and that required resources were available. Considering the potential shortfall
      in staffing and the resources needed for testing, these criteria must be addressed
      as soon as possible.


Conclusion

      The accuracy of quarterly reporting is critical; however, the actual work
      performed by DFAS is more important in solving the Y2K problem. DFAS
      should be concerned that its system managers meet all minimum requirements in
      the DOD Y2K Management Plan for exit criteria and project plans. More
      importantly, DFAS managers should ensure that an adequate assessment of each
      system is performed in a methodical, effective, and efficient manner. Further,
      DFAS and DODmanagement will not have accurate and reliable information on
      the status of all DFAS systems unless the methodology in the DOD Y2K
      Management Plan is consistently applied. Otherwise, DODand DFAS
      management could possibly rely on inaccurate information that could increase
      the risk of system failure due to the Y2K problem.


Recommendations, Management Comments, and Audit
Response
      A. We recommend that the Director, Defense Finance and Accounting
      Service Cleveland Center:

             1. Direct system managers at the Defense Finance and Accounting
      Service Cleveland Center to fidfill the assessmentphaseexitcriteriainthe
      DOD Year 2000 Management Plan for systems reported as being in the
      renovation phase.

      Management Comments. The DFAS concurred, stating that the DFAS
      Cleveland Center system managers will be directed to complete the assessment
      phase exit criteria for systems reporting in the renovation phase. DFAS further
      stated that DFAS Regulation 8000.1-R documents the validation strategy
      required in the assessment phase exit criteria.
      Audit Response. While DFAS Regulation 8000.1-R documents the corporate
      validation process, the DOD Y2K Management Plan infers that the validation
      strategy results from an assessment of the individual system testing requirements
      rather than a validation process at the corporate level. The action taken by
      Defense Finance and Accounting Service has met the intent of the
      recommendation.




                                          12
                                 Finding A. DFAS Reporting Requirements


       2. Direct system managers at the Defense Finance and Accounting
Service Cleveland Center to meet all criteria in the DOD Year 2000
Management Plan for systems listed as Year 2000 compliant, including
completion of the Defense Finance and Accounting Service compliance
certi5Btion ckcklkt, before reporting systems as compliant.

Management Comments. The DFAS concurred, stating that the DFAS
Cleveland Center system managers will complete the compliance certification
checklist before reporting systems as compliant.
       3. Establish a verification me&an&m to ensure that systems are
progress@ as needed to meet the deadline and that information reported
to DOD and Defense Finance and Accounting Service management is
accurate, reliable, and reflects the status of each Defense Finance and
Accounting Service system.

Management Comments. The DFAS concurred, stating that the DFAS
Cleveland Center Director will conduct monthly Y2K Control Board meetings
to provide a mechanism for monitoring system progress. This forum will
provide detailed Year 2CKKI
                          system status and ensure corrective actions should
problems arise.




                                  13
            Finding B. Interface Agreements
            The DFAS Cleveland Center had not effectively completed all necessary
            interface agreements. Of the 152 interface agreements required for the 9
            DFAS Cleveland Center systems we reviewed, 73 interface agreements
            for 3 of the systems had not been established. Of the remaining 79
            interface agreements that were established:
                   l   54 did not identify strategies and changed record formats,
                   l   53 lacked m&stone dates for implementation,
                   l   51 did not identify test files, and
                   l   62 did not identify a POC.
            DFAS identified 5 of the 9 systems reviewed among its top 20 mission-
            critical systems. The DFAS Cleveland Center does not have a
            verification process to ensure that adequate interface agreements are in
            place. As a result, some issues -- such as identifying responsible parties
            and determining how and when critical data exchanges will occur -- may
            be unclear and could cause a system to operate improperly.


DFAS Cleveland Center’s Responsibility for Systems
     According to the October 1997 quarterly report, the DFAS Cleveland Center is
     tracking 76 finance and accounting systems. Those systems are primarily
     responsible for processing and reporting on retiree pay and contractor payments.
     For systems that we selected for review, the number of interfaces with other
     systems ranged from 2 to 53.


Requirement for Interface Agreements
     Successful data exchanges are essential to DFAS finance and accounting
     operations. DFAS systems interface internally with other DFAS systems and
     externally with systems belonging to the Services, DODComponents, and
     various Federal agencies. Data exchanges are critical in the Y2K effort because
     they can introduce or transmit errors from one organization to another.
     Interface agreements are necessary when multiple parties are involved in data
     exchanges. The DODY2K Management Plan recommends that an interface
     agreement be a Memorandum of Agreement (MOA) or the equivalent. System
     owners can reduce the risk of potential failure by establishing interface
     agreements and agreeing on schedules and changed record formats and



                                          14
                                                  Finding B. Interface Agreements


    providing one another with test files. The DFAS Executive Plan for Y2K
    makes system managers responsible for agreeing how and when an interface
    between systems will be Y2K compliant.

    An interface agreement negotiated between the affected parties should allow
    DFAS to:

              identify and understand the strategy that each system and interface
              will use for Y2K;

              ensure that milestones are closely coordinated, monitored, and
              accomplished in a timely manner;

              identify testing to be performed for each system involved with the
              interface; and

              assign responsibility and ensure accountability.

    On September 11, 1996, the Under Secretary of Defense (Comptroller) issued a
    memorandum for the Assistant Secretaries of the Military Departments
    (Financial Management and Comptroller) and the Directors of the Defense
    agencies. The memorandum requested tbat written agreements document how
    and when interfaces will be made Y2K compliant, and that progress on
    interfaces be monitored through reviews.

    GAO Report No. AIMD-97-117 (OSD Case No. 1392), “Defense
    Computers: DFAS Faces Challenges in Solving the Y2K Problem,”
    August 11, 1997. The report states that DFAS has not identified all system
    interfaces, and has completed only 230 of 904 written agreements with interface
    partners. After the report was issued, DFAS took action on the GAO concerns.
    The Director, DFAS, instructed the Deputy Director for Information
    Management to establish written agreements with interface partners by
    September 30, 1997 (see Appendix B for details).


Interface Agreemeits at the DFAS Cleveland Center
    Review of DFAS Cleveland Center Interface Agreements. DFAS took action
    in response to the GAO report; however, as of November 26, 1997, interface
    agreements were still not in place at the DFAS Cleveland Center. We selected
    9 of 76 systems for review. Of the systems reviewed, DFAS identified five as
    being among its top 20 mission-critical systems. For the nine systems
    reviewed, the DFAS Cleveland Center identified 152 interfaces with other
    systems. DFAS established 79 of the required interface agreements, but 73 had
    not been established. Further, existing interface agreements for each of the 9
    systems were inadequate.

    Existence of DFAS Cleveland Center Interface Agreements. System
    managers at the DFAS Cleveland Center have not established adequate interface
    agreements with their partners, despite a self-imposed deadline of
    September 30, 1997. The DFAS Annual Statement of Assurance for FY 1996


                                        15
l!h%ng    B. Interface Agsements


         states that all interface agreements will be established by September 30, 1997.
         Specifically, three of the nine systems had not established all of the required
         interface agreements. Specifically, of the top 20 mission critical systems:
                l   the Standard Accounting and Reporting Systems (STARS), a
                    migratory system did not have 48 of the 53 interface agreements
                    needed.
                l   the Defense Retiree and Annuitant Pay System (DRAS), a migratory
                    system did not have 8 of the 15 interface agreements needed.
                l   the DWAS, did not have 17 of the 20 interface agreements needed.
         Note: Amounts identified in this report vary slightly from those identified in
         Appendix C as a result of additional analysis performed since the memorandum
         was issued.
         Elements of Interface Agreements. System managers provided written
         documentation for interface agreements. However, nearly all agreements lacked
         basic information needed to implement and manage the interfaces. According to
         the DOD Y2K Management Plan and DFAS guidance, interface agreements
         should include strategies and changed record formats, milestones, test files and
         affected fields, and POCs for each system and interface.
                 l Strategies and Changed Record Formats.        Strategies and changed
         record formats allow system managers to identify the method selected by
         interface partners and inform management as to which systems need to establish
         a bridge or filter to accommodate the exchange of data. Of the 79 interface
         agreements reviewed, 54 did not identify either a strategy, a changed record
         format, or both (see Appendix C for a list of systems and missing elements).
                 l Milestones. Interface agreements should include milestones for
         analysis, programming, testing, and implementation for both systems to ensure
         that each system and interface will meet its target date for Y2K compliance. Of
         the 79 interfaces agreements, 53 lacked milestones. For example:
                        l   the Industrial Fund Accounting System (IFAS), a migratory
                            system that is also a DFAS top 20 missioncritical system,
                            lacked milestones for 9 of the 11 interface agreements.
                        l   the ADS, a DFAS top 20 mission-critical system, had not
                            completed milestones for 12 of 13 interface agreements.
                        l   the Uniform Microcomputer Disbursing System (UMIDS) did
                            not have all milestones for four of six interface agreements
                            (see Appendix C for a list of systems and missing elements).
                l Test F’iles and Affected Fields. Test files and affected fields allow
         program managers to identify which files should be scheduled for testing so that




                                             16
                                                 FInding B. Interface Agreements


Y2K changes related to system interfaces can be tested. Of the interface
agreements reviewed, 51 of 79 did not identify test files, affected fields, or
both. For example:
                 l   IFAS had not identified test fdes or affected fields for any of
                     the 11 interface agreements.
                 l   STARS had not identified test files or affected fields for four
                     of five interface agreements (see Appendix C for a list of
                     systems and missing elements).
         l Points of Contact.    Identifying a POC for each system is necessary
to clearly outline responsibilities for coordination and proper reporting between
systems and interface partners. Of the interface agreements reviewed, 62 of 79
had not identified a POC for one or both systems. For example, ADS had not
identified a POC for 1 or both systems for all 13 interface agreements (see
Appendix C for a list of systems and missing elements).
DFAS Efforts to Address Y2K Issues. On October 3 1, 1997, we briefed
managers of the DFAS Cleveland Center. On November 17, 1997, we briefed
managers at Headquarters, DFAS. On November 26, 1997, we provided
DFAS management with a memorandum detailing our concerns about interface
agreements (see Appendix C). DFAS management held a Y2K summit on
December 15, 1997, with DFAS Center Directors and Y2K POCs. During the
summit, the Director, DFAS agreed with the Inspector General (IG), DOD, that
interface agreements were nonexistent or inadequate at all DFAS Centers. He
emphasized the need to quickly obtain adequate interface agreements. DFAS
management set January 3 1, 1998, as the new deadline for system managers to
obtain adequate interface agreements. In response to our list of concerns about
interface agreements, DFAS has taken the following steps.
        l   DFAS Cleveland Center management reissued the guidance on
            interface agreements and directed all system managers to review,
            report on, and complete all Y2K interface agreements by
            January 3 1, 1998, and to immediately report any problems.
       l    DFAS Cleveland Center management performed a spot check of
            interface agreements for content.
Verification Process. We commend DFAS for recognizing and addressing the
need to develop interface agreements quickly and for setting an early deadline.
Ensuring that mterface agreements with all the necessary elements are
established reduces the risk of errors during critical data exchanges.
Establishing a process for verifying interface agreements and milestones for
completing the verification process will help the Director, DFAS Cleveland
Center, reduce the risk of system failures.




                                       17
F’lnnillp B. Interface Agreements




      The DOD Y2K Management Plan provides overall guidance for DODY2K
      efforts. The DODY2K Management Plan states that DOD Component heads or
      their Y2K POCs shall document and obtain interface agreements in the form of
      MOAs or the equivalent. The DFAS Executive Plan for Y2K makes system
      managers responsible for obtaining interface agreements that state how and
      when the interface will be compliant. DFAS Cleveland Center management has
      not sufficiently implemented the guidance on interface agreements and has not
      established a process to verify that all interface agreements are adequate and in
      place. Thus, the DODY2K Management Plan and the DFAS Executive Plan
      for Y2K have not been fully implemented. Obtaining interface agreements to
      address the Y2K problem are critical for automated fmial        systems. The
      agreements describe the method of interface, identify responsibilities for
      accommodating data exchange, and include target dates for each milestone.
      Although the establishment of interface agreements is important, the terms and
      conditions of interface agreements are more critical, considering the impact of
      Y2K issues. DFAS management must insist that system managers obtain
      interface agreements, and system managers must be responsible for reviewing
      all interface agreements to ensure that every element is adequately addressed.
      We commend DFAS management for acting promptly after our briefing on
      November 17, 1997, and our memorandum of November 26, 1997 (see
      Appendix C).


Recommendations and Management Comments
      B. We recommend that the Director, Defense F’iuance aud Accounting
      Service Cleveland Center:

             1. Establish a milestone for verification.

            2. Perform the verification process to ensure that all interface
      agreements are complete and include the necessary elements.

      Management Comments. The Defense Finance and Accounting Service
      concurred, stating that the DFAS Cleveland Center established a milestone of
      March 3 1, 1998, to correct deficiencies identified with Year 2000 interface
      agreements. System managers will verify that existing interface agreements
      include the necessary elements.




                                          18
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
    Work Performs        This is one in a series of reports being issued by the IG,
    DOD, in an informal partnership with the Chief Information Officer, DOD, to
    monitor DOD efforts to address the Y2K computing challenge. For a listing of
    audit projects addressing this issue, see the Y2K World Wide Web page on the
    IGNET (http: //www. ignet.gov/).

    This report was based on audit field work performed at the DFAS Cleveland
    Center and its Financial Systems Activity from April through
    December 1997.

    We reviewed the DFAS Cleveland Center’s quarterly Y2K report, submitted in
    October 1997 to the DFAS Deputy Director for Information Management.
    Based on the DOD Y2K Management Plan and DFAS Regulation 8000. l-R, we
    evaluated the reliability of the report. We also evaluated the usefulness of
    information in the quarterly report for oversight purposes.

    We interviewed personnel in the Office of the ASD (C3I) who issue guidance
    on Y2K reporting, collect Y2K information from the DOD Components, and
    submit the information to OMB. We also interviewed DFAS personnel who are
    responsible for Y2K quarterly reports. We interviewed the DFAS Y2K project
    manager; the Director, DFAS Cleveland Center; the Y2K POC at the DFAS
    Cleveland Center; and system managers in functional and technical areas.
,   We reviewed 14 of 76 systems reported on by the DFAS Cleveland Center. To
    select the systems for review, we used the October 1997 DFAS quarterly
    reports, the DIST database, and the DFAS System Inventory Database. Of the
    14 systems we reviewed, 2 systems were categorized as compliant, 6 were to be
    changed and in the renovation phase, 1 was in development, and 5 were to be
    replaced. We reviewed system-level Y2K project plans and evaluated
    documentation to determine whether the systems met the requirements of the
    DOD Y2K Management Plan, Version 1.0, April 1997.

    We selected 9 out of 76 DFAS Cleveland Center systems to review their
    interface agreements. For the 9 systems reviewed, we requested 152 interface
    agreements and received 79 agreements to validate their existence and determine
    their adequacy.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling procedures to perform this audit.



                                       20
                                                     Appendix A. Audit Process



    Use of Technical As&stance. We met with technical experts in the Analysis,
    Planning, and Technical Support Directorate to discuss issues relating to
    interface agreements, test@plans, and software development and maintenance.
    Audit Type+ Dates, and Standards. We performed this financial-related audit
    from April through December 1997 in accordance with auditing standards issued
    :;?+I CoJoJtroller General of the United States, as implemented by
          ,     .

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.


Management Control Program
    We did not review the nxktgement control program because DFAS and DOD
    identified Y2K as an uncorrected material weakness in their Annual Statements
    of Assurance for FYs 1996 and 1997.




                                      21
Appendix B. Summary of Prior Coverage
The GAO and the IG, DODhave conducted multiple reviews related to Y2K issues.
GAO reports can be accessed over the Internet at http://www.gao.gov. IG, DOD
reports can be accessed over the Internet at http://www.dodig.osd.mil.

General Accounting Office
      The General Accounting Office audit relevant to this report is summarized
      below.
      GAO Report No. AIMD-!V-117 (OSD Case No. 1392), “Defense
      Computers: Defense Finance and Accounting Service Faces Challenges in
      Solving the Y2K Problems,” August ll,l!W7. The report states that DFAS
      developed a Y2K strategy consistent with the DODY2K Management Plan and
      defined conditions that automated information systems must meet to obtain
      certification as Y2K compliant. However, DFAS had not identified all critical
      tasks for achieving Y2K objectives, established milestones for completing all
      tasks, performed formal risk assessments of all systems to be renovated, or
      prepared contingency plans in the event that renovations are not completed in
      time or fail to operate properly. The report also states that DFAS had not
      identified all system interfaces and had completed only 230 of 904 written
      agreements with interface partners. Further, DFAS had not adequately ensured
      that testing resources would be available to determine whether all operational
      systems are compliant before the Y2K. The report recommended that DFAS
      identify Y2K program actions and milestones, issue guidance on ensuring
      continuity of operations, identify external interfaces and obtain written
      agreements describing the method of data exchange, and devise a testing
      schedule to ensure that all systems can operate in a Y2K environment. The
      Under Secretary of Defense (Comptroller) wncurred with the recommendations.
      DFAS agreed to update its existing Y2K Executive Plan and its Corporate
      Contingency Plan. DFAS also agreed to have all written interface agreements
      with interface partners in place by September 30, 1997, and to fully implement
      its Y2K certification process for ensuring that all systems are compliant.
      Further, DFAS agreed to devise a testing schedule that identifies the test
      facilities and resources needed for performing proper testing of its systems in a
      Y2K environment.




                                         22
Appendix C. IG, DOD, Memorandum to DFAS
Cleveland Center on Y2K Initiatives




                                                                      November 26. 1997


 MEMORANDUM FOR DEPUTY DIRECTORFOR INFORMATIONMANAGEMENT.
                  DEFENSEFINANCE AND ACCOUNTINGSERVICE

 SUBJECT: Review of Defense Fbance and Accounting Service (DFAS) Year 2000
          Initiatives


       Our review of the DFAS Year 2000 Initiatives was basedon survey and audit field work
 perfomxd at the DFAS Indianapolis and Cleveland Centers and Financial Systems Activities
 from August through October 1997. ‘l’hii memorandum nporta the initial results of our revie\\.
 We used guidance contained in the DOD Year 2000 Management plan. Version 1 .O April 1997
 to evaluate the overall effechness of DFAS Year 2000 effot%. The review ah cohdered
 and evaluated the use of DFAS regulations and hdustry’s best practices, as needed.

         We held an in Process Review with Mr. Amlin, Acting Director, DFAS on
 November 17.1997. During this In Process Review, we b&fed preliminary issues concuning
 interface agreements and the accuracy of quarterly repotts. Per your request. we have drafted
 an assessment of the quarterly mpurts and status of interfaceagreements.

         Due to the nature of Year 2000 effects. it is our intent to identify potential areas Of
 concern  so that DFAS Management may addresstheaa issuesin a timely -.                  We may
 include these and any additicnal issues in a draft report a( a later date. If there are any
 questions,please contact Mr. Geoffrey W&r, Acting Project Manager, at (703) 604-9151 or
 DSN 664-9151 or Ms. Kimberly Caprio (703) 604-9139 DSN 664-9139.




                                           F. Jay Lam
                                             DkX!Of

                               Finance and Accounting Dkctomte




                                                      23
Appendix C. IG, DOD, Memorandum to DFAS Cleveland Center
on Y2K Initiatives



Interface AseemenQ

According to the DODYear 2000 Management Plan, data exchanges are critical in the
Year 2ooOeffort because they have the potential to introduce/propagate errors from onr
organization to another. Trading partners can help mitigate this potential pitfall by
agreeing early on to schedules, changed record formats, and by providing one another
with test files. On September 11, 1996, the Deputy Secretary of Defense issued a
memorandum for the Assistant Secretaries of The Military Departments (Financial
Management and Comptroller), and the Directors of The Defense Agencies. In his
memorandum, the Deputy Secretary requested that written agreements document how
and when interfaces will be made Year 20 compliant, and that a process be
established to monitor progress. We believe that it is imperative for systems to have
adequate interface agreements in place for each interface.

For an interface agreement to be adequate, some of the major elements that should be
addressed and included in written interface agreements are milestones, strategies and
change record formats, identified test fdes and affected fields, and a point of contact
for each system. Milestones should be included in the interface agreements to help
ensure that each system and interface will meet their target date for implementation.
Documenting the strategies and record change formats enable systems to identify the
interfacing files and the strategy selected by interface partners. This information will
allow for the establishment of bridges or futers, as needed. Test files and affected
fields will identify which files should be scheduled for testing so that Year 2000
changes related to system interfaces can be properly tested. A documented point of
contact (POC) for each system will ensure that full coordination and proper reporting
progress is facilitated between systems and interface partners.

The following conclusions are based on self-identified interfaces and written interface
agreements provided to our office during our visit to the DFAS Cleveland Center
during the period Oct. 27-31, 1997. Our office requested and reviewed interface
agreements from 9 systems at the DFAS Cleveland Center. We found that some
interface agreements had not yet been established and that some lacked sufficient detail.
We only noted the missing or inadequate critical elements that require attention.

Interface Agreements:

Standard Accounting and Reporting System (STARS)
Migratory and DFAS Top 20 Critical This system has identified 55 interfaces. Over
90 percent of the interface agreements are not in place (50 out of 55).

Defense Retiree and Am&ant Pay System (DRAS)
Migratory and DFAS Top 20 Critical This system has identified 15 interfaces. Over
53 nercent of the interface agreements are not in place (7 out of 15).



                                           24
                    Appendix C. IG, DOD, Memorandum to DFAS Cleveland Center
                                                           on Y2K Initiatives



Defense Working Capital Accounting System (DWAS)
Migratory and Mission Critical This system has identified 20 interfaces, over 85
percent are not in place (17 out of 20).

Major Elements of Interface Agreements:

Milestones:

Automated Disbursing System (ADS)
DFAS Top 20 Critical 12 of the 13 interface agreements did not identify milestones.

Industrial Fund Accounting System (IFAS)
Migratory and DFAS Top 20 Critical 8 of the 10 interface agreements did not have
milestones, or only identified partial milestones.

Uniform Microcomputer Disbursing System (UMIDS)
DFAS Top 20 Critical 5 of the 6 interface agreements did not have milestones, or
only identified partial milestones.

Strategies and change record formats:

Departmental Financial Reporting & Reconciliation System (DFRRS)
13 of the 26 interface agreements failed to identify the strategy to be used and/or failed
to describe or assign responsibility for a bridge.

Test files and affected fields:

Automated Disbursing System (ADS)
DFAS Top 20 Critical 11 of the 13 interface agreements failed to identify test files.   2
Of these 11, one mentioned test fdes but failed to identify affected fields.

Industrial Fund Accounting System (IFAS)
Migratory and DFAS Top 20 Critical None of IFAS’s interface agreements
identified test files or affected fields.

Departmental Financial Reporting & Reconciliation System (DFRRS)
Critical 16 of the 26 interfaces agreements failed to identify their test files and
affected fields.




                                            25
Appendix C. IG, DOD, Memorandum to DFAS Cleveland Center
on Y2K Initiatives



Standard Accounting and Reporting System (STARS)
Migratory and DFAS Top 20 Critical 4 f the 5 interface agreements failed to ident@
test files and affected fields.

Point of Contact (POC):

Of the 149 interface agreements reviewed, only 10 interfaces identified a POC with
both a name and phone number for each system.

Svstem Phase Ouarterlv Renorting

The DODYear 2000 Management Plan has established certain reporting guidelines to
standardize the reporting process and to ensure that a consistent methodology is
followed by system managers when reporting the Year 2000 status of systems. We are
concerned about the level of work that is implied when systems are reported in a
particular phase of the quarterly report. While the accuracy of reporting is critical, we
have an equal concern about the actual work that has been performed to date.

We selected systems from the DFAS Indianapolis and DFAS Cleveland Centers that
were included in the DFAS quarterly reports. We reviewed systems that were reported
in the renovation phase or compliant category. We interviewed system functional and
technical managers and reviewed supporting documentation to determine whether the
systems met the minimum exit criteria requirements outlined in the DODYear 2000
Management Plan, version 1.O April 1997. In analyzing the systems, we did not
consider the contingency strategy and risk management strategy to determine if a
system was categorized in the correct phase. We used the October, 1997 DFAS
quarterly report to select the DFAS Cleveland Center systems and the July, 1997
DFAS quarterly report to select DFAS Indianapolis Center systems. Our concerns are
outlined below by DFAS Center and system.
DFAS Cleveland Center Systems

Automated Disbursing System (ADS):
Migratory and DFAS Top 20 Critical System
The requirement to identify the resource strategy requirements as well as the
requirement to document the start and release date for each phase was met. However,
the renovation strategy, validation strategy and the major steps to establish the
necessary infrastructure requirements were not established. The Y2K plan was
inadequate and system managers stated there was no documentation to support the work
performed during the assessment phase. ADS was reported in the renovation phase
in the DFAS October quarterly report. However, the system had not met the
minimum exit criteria and should have been reported in the assessment phase.




                                           26
                  Appendix C. IG, DOD, Memorandum to DFAS Cleveland Center
                                                         on Y2K Initiatives



Book Entry Bond System (BEBS):
The requirement to establish the start and release date for each phase was met. System
managers had not established the renovation strategy, validation strategy and the major
steps to identify the necessary infrastructure requirements. Additionally, the resource
strategy requirement was not met. The Y2K plan lacked sufficient detail. Although
system managers stated that they were still performing analysis, the July quarterly
report reflected that the system was in the renovation phase, Additionally,
documentation provided by system managers stated that programming would begin in
January 1998 and that analysis would be completed in December 1997. The system
was reported in the renovation phase in the DFAS October quarterly report.
However, the DOD Year 2000 Management Plan minimum exit criteria had not
been met. The system should have been reported in the assessment phase.

Standard Accounting and Reporting System (STABS):
Migratory and DFAS Top 20 Critical System
The requirement to identify the start and release date for each phase and the major steps
 to establish the necessary infrastructure requirements was met. The system managers
 provided information related to risk management, environment, hardware technical
 descriptions, resources, and responsibilities. However, validation strategy and
 renovation strategy requirements had not been met. The Y2K plan obtained is not
Isufficiently detailed. The system was reported in the renovation phase in the DFAS
~October  quarterly report. However, the @em had not met the minimum exit
criteria and should have been reported in the assessment phase.

Defense Working Capital Accounting System (DWAS):
Migratory and DFAS Top 20 Critical System
Although the DWAS system is reported in the compliant category, the system
certifications are still in process. Certification level II for the DAPS component is
ongoing and Certification level I for PWC is due in March/April 1998. Since the
operating system is not compliant and system management stated that the Joint
Interoperability Test Command will perform 3rd party testing, the system should be
reported in the validation phase. The system was reported in the compliant category
in the DFAS October quarterly report. However, the DOD Year 2000
Management Plan exit criteria had not been met and the system should have been
reported in the validation phase and should not be listed in the compliant
category.

Standard Finance System (STANFINS):
The system managers stated that the Y2K approach and strategy had not yet been
determined during interviews held on August 12, 1997. A Y2K plan was anticipated tc3
be developed and completed by October, 1997. The system should not have been
categorized in the renovation phase as of S/12/97 as the minimum exit criteria for
the assessment phase had not been met.




                                           27
Appendix D. DFAS Cleveland Center Comments
on IG, DOD, Memorandum

                             OEFENSE FINANCE AND ACCOUNTIffi       SERVtCE
                                        CLEVELAND CENTER
                                          1240 EAST NINTH STREET
                                         CLEVELAND,UH 441)9205S


                                                                          J4N   12 7998




   MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERWCE,
                    FINANCIAL,SYSTEMS ORGANIZATION

   SUBJECT: Y2K DoDIG Data Request


          In response to the Department of Defense, Inspector General (DoDIG) memorandum of
   November 17.1997 conccming the Year 2000 (Y2K) for the Defknse Finance and Accounting
   Service - Cleveland Center (DFAS-CL), I have reviewed and concur with the attached.

        My point of contact is Richard Krajewski or Sandra Johnson They can be reached at
   DSN 58041 WS628 or (216) 522-5116-5628.




                                                   Director


  As statsd




                                           28
   A~penctixD. DF’AS Cleveland Center Comments on IG, DOD, Me,mormdm




The following is provided to respond to the DoDIG request of l/7/98.

ktterfke Amements - DFAS-CL management has taken the followinginitiativesto
validate the existence and adequacy of Y2K interface agreements:

 1. DFAS-CL management direct4 that the DFAS-CL system managers review all their
existing Y2K Interfhce Agreements (MOAs) for conterrtladquacy. A spreulshcet report
format was provided for this review on U/22/97. The review was to include the
fbliowing items: systems named with YZC strategy,      inte&x file(s) lied, number of input
files, number of output files, inter&e file layout(s) attached or affbctad &Ids Iistecl,
interface strategy listed, schedule with target completion dates Iistcd, manager names
printed, signed by both parties, POC information listed on attached sheet The YZK MOA
review repon is due back to the DFAS-CL Y2K Project Coordinator by l/20/98.

2. The DFAS-CL Director directed that all Y2K intice      agreements are to be completed
by l/30/98 with no exceptions. Her direction stated that any problems are to be
forwarded up the management chain immediitcly. Any outstanding Y2K MOAS are to be
forwarded with dates and times of discussion and POC infbrmatioa The Director will
follow up on the outstanding MOAs with her POCs in the Navy and other agencies as
required. In November, the DFAS-CL Director provided the Principal Deputy. ASN
(PM&C), with a fist of outstanding inte&ce agreements between Navy and DFAS-CL.
Y2K status of agreements is discussed duringtheir we&y conference call and appropriate
foIlow-up taken.

3. The completed Y2K Interface Agreements &OAs) for all DFAS-CL critical systems
were collected in December 1997. Spot checks on MOA content were conducted by the
DFAS-CL Y2K Project Officer, Some system managers were contacted to ascutain if
multiple inte&ces on one agreement were being counted as one inter&e or the number
of files that were actuaIIy being exchanged.

4. Guidanoe on the required content of a Y2K interface agreement was reissued to -em
managers working on MO& in December. DFAS-CL Director’s memorandum orAugust
8, I997 provided a sample format. This format was subsequently also posted on the
DFAS website.


Am-                   The following actions have been &en to m          the adquacy   of
assessments being conducted.

1. The DFAS-CL D&tor dkcctGd a review of Y2K plans. ‘I& Y2K plans of alI DFAS-CL
cliticaIsystemswaerevlewedbytheIllfbrlaation~emtot0ffice
@FAs-CUMO).         Thtmriew~raenntrcthatrllsystemmKplanscontainedatIeastthe
minimum major milestones that had been mandated at previous YX Control Board
meetings. The review also included a check on the sequence and logic of dates provided.




                                          29
Appendix D. DFAS Cleveland Center Comments on IG, DOD, Memorandum




   Additionally,
              our assessment/reviewprocessis consideredcontinuousin that as additional
   refkmentskhanges are idetkfiedtheyareaddedto the planandworkedaccordingly.

   2. The DFAS-CLDirectorhascontinued
                                    withmonthlyY2KProgramControlBoard
   meetings.ShehasusedthisforumforYX systemstatusupdateson specificsystemsand
   alsoto surf& Y2Kissuesandproblems.Themeetingsazealsousedto provide
   informationupdateson Y2Kfroma DFASperspective.

   3. The DFASY2KManagement   Plan,December1997,hasbeendistributedvia ektronic
   mailto the DFAS-CLmanagement andtheDFAS-CLsystemmanagernetwork.

   SystemsRmortedas Cowliant but notcesti6ed- The~llowiagactionshavebeen
   takento ensurethe adequacyof test plans,test results,andCertikationS.

   1. The DFAS-CLY2KProjti Officerissueda’
                                         message
                                              on Testplans. The message
   includeswhatis txpectedin a testplanandreferencedthe relevantguidancedocument,
   the DFASY2KManagementPlan. A sampletest SuppIied      bythe bFAS Y2KPOClwas
   also distriiuted. OtherexamplesoftestplansWereof&redon rquest.

   2. Thetest plansandtest resultsforallDFAS-CLcriticalsystemsthat have reachedthe
   stagewhenthesedocumentshavebeenproduced,werecokted in December1997by
   DFAS-WMO. A generalreviewofthedocumentsfor adequacywas conducted.

  3. The procedurethat the DFAS-CLhasfollok withrespectto Y2KCompIiancc
  Cert&ation is that the documentis submittedvia the DFAS-CLY2KProjectofficerto
  the Director. TheProjectOfIicerreviewsthe document,discussesitemswith the system
  manageras necessary,and recommends   tiispo&ionto Director.TheDFAS-CLDirector
  conductsan inttiew withthe systemmanagerandreviewsthe Y2KCompliance
  Catificationdocumentwith thatmanagerpriorto signingthe document.


                                    SandraJohnson 1
                                    DFAS-CLY2K
                                    ProjectCoordinator



                                         30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Cdmmand, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Deputy Director for Information Management
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Indianapolis Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Information Systems Agency
Inspector General, Defense Intelligence Agency




                                        31
Appendix E. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          32
Part III - Management Comments
Defense Finance and Accounting Service
Comments

              DEFENSE       FINANCE       AND     ACCOUNTING                SERVICE
                             1931   JEFFERSON     DAVIS      HIGHWAY
                                ARLINGTON,      VA 222O&S291




  DFAS-HQ/S                                                             March 17, 1990

  MEMOIUWDUM FOR INSPECTOR GENERAL, DEPARTMENT                         OF   DEFENSE

  SUBJECT:    Audit Report on Year 2000 Initiatives at the
              Defense Finance and Accounting Service Cleveland
              Center (Project No. 7E'G-0043)


       In response to your memorandum dated January 27, i998,
  subject as above, the audit report has been reviewed and the
  attached comments are provided for your consideration.

       Any questions should be direct to the DFAS Year 2000 Project
  Officer, Mrs. Sharon Brustad, at 317-510-5647 (DSN 699-5647).

                                                     _.“‘)
                                      *.-‘--’ t’
                        &   ~   (__. “a~~e’,~uz&--                     (-
                 Dirfctor for Information and Technology


  Attachment:    As stated




                                          34
                       Defense Finance and Accountim Service Comments




1. Recommendation A.l: Direct system managers at the Defense
Finance and Accounting Service Cleveland Center to fulfill the
assessment phase exit criteria in the DOD Year 2000 Management
Plan for systems reported as being in the renovation Phase.

    DFAS Cleveland Response A.l: Concur. System managers will
be directed to ensure they fulfill the assessment phase exit
criteria in the DOD Year 2000 Management Plan. It is our belief
that DFAS Cleveland met the minimum assessment phase exit
criteria by using a combination of Corporate Level and System
level planning and documentation. The renovation strategies were
determined and reported on the DFAS Y2K Report. The DFAS
validation strategy is documented in the DFAS Regulation 8000.1-
R. The DF’AS Cleveland system managers did comply with the
guidance in the DFAS Year 2000 Executive Plan and with the
guidance provided both verbally and in writing by the DFAS Year
2000 Project Officer.

2. Recommendation A.2: Direct system managers at the Defense
Finance and Accounting Service Cleveland Center to meet all
criteria in the DOD Year 2000 Management Plan for systems listed
as Year 2000 compliant, including completion cf the Defense
Finance and Accounting Service compliance certification
checklist, before reporting systems as compliant.

    DFAS Cleveland Response A.2: Concur. DFAS systems were
piaced in the compliant category before the certification process
was required. All of the DFAS Cleveland systems currently listed
in the compliant category have been certified. System managers
will complete the Defense Finance and Accounring Service
compliance certification checkiist before reporting systems as
compliant.

3.  Recommendation A.3: Establish a verification mechanism to
ensure that systems are progressing as needed to meet the
deadline and that information reported to DOD and Defense Finance
and Accounting Service management is accurate, reliable, and
reflects the status of each Defense Finance and Accounting
Service system.

    DFAS Cleveland Response A.3: Concur. The DFAS Cleveland
Director will address the systems' status at the DFAS Cleveland
Y2K Control Board meetings which are held mcnthly. This forum is
used by the DFAS Cleveland Director to obtain detailed Year 2000
status updates on selected systems, to monitor progress on Y2K
projects, to surface outstanding issues and concerns related tc
Y2K on any system, and to ensure that corrective actions are
taken when problems arise.




       I
Attachment                   I
Ilefense Finance   and   Account     Service Comments



    4.    Recommendation B.l:      Establish a milestone for verification.

        DFAS Cleveland Response B.l: Concur. Verification and
    correction of deficiencies identified with Year 2000 interface
    agreements should be completed on March 31, 1998.

    5. Recommendation B.2: Perform the verification process to
    ensure that all interface agreements are complete and include the
    necessary elements.

        DFAS Cleveland Response B.2: Concur. DFAS Cleveland
    management directed that the DFAS Cleveland system managers
    review al!.existing Year 2000 interface agreements for
    content/adequacy. The review includes: systems named with Y2K
    strategy, interface file(s) listed, number of input files, number
    of output files, interface file layout(s) attached or affected
    fields listed, interface strategy listed, schedule with target
    completion dates listed, manager names printed, signed by both
    parties, and POC information listed on attached sheet.




    Attachment I                       2




                                              36
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.


F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Geoffrey L. Weber
Phillip L. Holbrook
Anthony L. Carbone
A. Dahnelle Alexander
Bryan K. Kitchens
Velma E. Garcia-White
Susanne B. Allen
Harriet E. Lambert
Traci Y. Sadler
